PROOF OF SERVICE
I,Madhu Sameer,do swear or declare that on this date 8/2/2020 (in New Zealand),as
required by Supreme Couq'Itule 29,1 have served the following documents :
Motion For Leave To proceed in Forma Paupris,and
Petition for A Writ Of Certiorari
On defendant
SAMEER KHERA,
JODY WINTERS
JOHN BURTON
MARSHALL WHITNEY
SHARON NAGLE
Attorney Generals Office
Using their email address skhera_1999@yahoo.com,
jwinter@lloydwinterlaw.com
jburton@jsburton.com
mwhitney@wtjlaw.Com
snagle@bpmnj.com
AGelectronicservice@doj .ca.gov.
I used my email address Madhu.bambroo@gmail.com to serve these documents.
Respectfully Submitted

8/10/2020 (New Zealand)

Madhu Sameer,Petitioner,Pro Se

